CERTIFICATE OF SERVICE

Paul P. Ackourey, Esquire, Counsel for Petitioner, does hereby certify that on
the 17" day of August, 2020 he did file electronically a Petition for Writ of Certiorari
upon the Clerk of the Supreme Court of the United States.

Paul P. Ackourey, Esquire, Counsel for Petitioner filed on the 17" day of
August, 2020, he did serve an original and 10 hard copies of a Petition for Writ of
Cerioriari upon the Clerk of the Unites States Supreme Court by United States Mail,

first class, postage pre-paid, addressed as follows:

Clerk of Courts

Supreme Court of the United States
1 First Street

N.E. Washington, D.C. 20543-00001

Paul P. Ackourey, Esquire, Counsel for Petitioner, does hereby further certify
that on the 17" day of August, 2020, he did serve two (2) copies of the Petition for
Writ of Certiorari by first class, U.S. Mail, postage pre-paid upon the following:

Sean Camoni, Esquire

Assistant United States Attorney
William J. Nealon Federal Building
235 North Washington Avenue
Scranton, PA 18503

ACKOUREY & TUREL, P.C.

BY:/s/ Paul P. Ackourey, Esquire
PAUL P. ACKOUREY, ESQUIRE

Counsel for Appellant
ackoureyandturel@gmail.com
